h

gii
No.

Ji-

-5119

ORIGINAL
Supreme Court, U.S. _
FILED

MAY 2 6 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

BILLY JOE WOLFE, JR., - PETITIONER
VS.
STATE OF ARKANSAS - RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO
ARKANSAS SUPREME COURT

PETITION FOR WRIT OF CERTIORARI

Billy Joe Wolfe, Jr. #404414
James Crabtree Correctional Center, Unit 6

RECEIVED

216 North Murray Street

JUL 1 3 2021

Helena, Oklahoma 73741-1017
(580) 852-3221

RECEIVED
JUN - 8 2021
1

OFFICE OF THE CLERK
SUPREME COURT, U.S.

4

V'

TABLE OF CONTENTS

QUESTIONS PRESENTED

3

LIST OF PARTIES

3

OPINIONS BELOW

4

JURISDICTION

5

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

6

STATEMENT OF THE CASE

7

REASONS FOR GRANTING THE PETITION

8

CONCLUSION

9

PROOF OF SERVICE

10

2

QUESTIONS PRESENTED
1)

Whether the provisions of treaties between the Cherokee Nation and the
United States reserve jurisdiction for crimes committed by a Cherokee Nation
citizen to tribe or federal government, excluding State criminal jurisdiction?

2)

Whether a violation of treaty stipulations with respect to extradition deprives
a State Court of jurisdiction?

3)

Whether a State Court’s failure to adhere to its plea agreement promises
renders the plea involuntary?

4)

Whether ineffectiveness of counsel render a plea of guilty involuntary?

LIST OF PARTIES
[X] All parties appear in the caption of the case on the cover page.

3

C/C'

IN THE
SUPREME COURT OF THE UNITED STATES
V.'

PETITION FOR WRIT OF CERTIORARI

OPINIONS BELOW

[X] For cases from state courts:

The opinion of the highest State Court to review the merits appears at
Appendix A on the petition and is
[X] is unpublished.

The opinion of the Jefferson County Circuit Court to review the merits
appears at Appendix A on the petition and is
[X] is unpublished.

4

JURISDICTION

[X] For cases from state courts:

The date on which the highest State Court decided my case was April 22,
2021. A copy of that decision appears at Appendix A.

The jurisdiction of this Court is invoked under 29 U.S.C. § 1257(a).

5

'Ob

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution, Article VI § 2
United States Constitution, Sixth Amendment
United States Constitution, Fourteenth Amendment

6

STATEMENT OF THE CASE

Petitioner, an enrolled member of the Cherokee Nation as an Indian by
blood, was arrested and property seized from his home on allotted Cherokee land
in Mays Country within the boundaries of the Cherokee Nation Reservation by
Oklahoma Delaware County Sheriff Department officials without authorization
from tribal or federal officials. Petitioner was held in Delaware County Jail in
Oklahoma and then transported to Benton County, Arkansas.
There, Petitioner was charged with Capital Murder and Kidnapping. Pre-trial
Motions were made to exclude evidence based on Fourth Amendment violations
but no ruling ever occurred. To avoid the death penalty, Petitioner .was
encouraged/forced by his attorney to enter a guilty plea in exchange for a Life
With Parole sentence. The plea agreement to which judge and prosecutor were
parties. Petitioner was sentenced to Life Without Parole for the murder charge.
Petitioner filed a State Post-Conviction action and Relief was denied: He
filed a Petitioner for Writ of Habeas Corpus, which was denied. Petition appealed
to Arkansas Supreme Court, which affirmed. This Petition for Certiorari ensued.

7

REASONS FOR GRANTING THE PETITION

In the American judicial system, no one is above the law. Not average citizens, not
defense attorneys nor prosecutors, not even the judges in whose courtrooms everyone hopes to
find justice. The State of Arkansas seems to think and behave otherwise.
Where this Honorable Court has held that a court is without jurisdiction to set sentence
differently than the plea agreement, endorsed by the Judge, specifies, (See, Santobell v. New
York, 92 S.Ct. 495 (1971), the State of Arkansas says it does not have to follow the Court’s
direction. Where the United States Constitution and this Court has said that treaties are the
supreme law of land that all Judges are bound by, the State of Arkansas says it does not have to
recognize or give effect the Cherokee treaties, (See, 1866 Treaty of Washington, 14 stat. 799,
Articles 12 and 13; 1835 Treaty of New Echota, 7 Stat. 478, Article 5,Alberty v. U.S., 162 U.S.
499 (1896); United States Constitution, Article VI § 2) especially where the treaties deny state
criminal jurisdiction, deny interruption and intrusion by State Officials. Where this Court
demands Attorneys representing indigent defendants be effective in their representation, the State
of Arkansas say this is of no consequence. (Strickland v. Washington, 466 U .S. 668)
In all these circumstances, a State of the Union, Arkansas, declares itself above the law,
immune to federal law, whether Acts of Congress or Treaties, and to the holdings of this
Honorable Court.

8

For these reasons, (1) failure to give effect to Cherokee treaties, (2) violating the
sovereignty and boundaries of the Cherokee Nation, (3) failure to provide specific performance
of a judge-endorsed plea agreement, and (4) failure to provide effective assistance of counsel.
Petitioner request the Petition for Certiorari be granted.

CONCLUSION

The Petition for Writ of Certiorari should be granted.

Respectfully submitted,

5'2H ~Zl

fit

Date

Billy Joe Wolfe, Jr., rpc #404414

9

